<html>
<title> - PATHWAYS TO REESTABLISH U.S. GLOBAL LEADERSHIP IN NUCLEAR ENERGY AND S. 903, THE NUCLEAR ENERGY LEADERSHIP ACT</title>
<body><pre>[Senate Hearing 116-295]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-295
 
                  PATHWAYS TO REESTABLISH U.S. GLOBAL
                    LEADERSHIP IN NUCLEAR ENERGY AND
               S. 903, THE NUCLEAR ENERGY LEADERSHIP ACT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2019

                               __________
                               
                               
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
36-265                 WASHINGTON : 2020         
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
         Dr. Benjamin Reinke, Senior Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Rory Stanley, Democratic Professional Staff Member
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................    31
Risch, Hon. James E., a U.S. Senator from Idaho..................    33

                               WITNESSES

Peters, Dr. Mark, Laboratory Director, Idaho National Laboratory.    34
Finan, Dr. Ashley E., Executive Director, Nuclear Innovation 
  Alliance.......................................................    44
Korsnick, Maria, President and CEO, Nuclear Energy Institute.....    61
McManus, Mark, General President, United Association of 
  Journeymen and Apprentices of the Plumbing and Pipe Fitting 
  Industry of the United States and Canada, AFL-CIO..............    71
Merrifield, Hon. Jeffrey S., Former Commissioner, U.S. Nuclear 
  Regulatory Commission, and Partner and Energy Section Leader, 
  Pillsbury Winthrop Shaw Pittman LLP............................    76

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Allen, Todd:
    Letter for the Record........................................     3
Birol, Dr. Fatih:
    Letter for the Record........................................    30
Chamber of Commerce of the United States of America:
    Letter for the Record........................................     5
ClearPath Action:
    Letter for the Record........................................     6
Finan, Dr. Ashley E.:
    Opening Statement............................................    44
    Written Testimony............................................    46
    Responses to Questions for the Record........................   157
Framatome Inc.:
    Letter for the Record........................................     7
Irish, Simon:
    Letter for the Record........................................     8
Korsnick, Maria:
    Opening Statement............................................    61
    Written Testimony............................................    63
    Responses to Questions for the Record........................   163
Manchin III, Hon. Joe:
    Opening Statement............................................    31
McManus, Mark:
    Opening Statement............................................    71
    Written Testimony............................................    73
    Responses to Questions for the Record........................   165
Merrifield, Hon. Jeffrey S.:
    Opening Statement............................................    76
    Written Testimony............................................    78
    Responses to Questions for the Record........................   168
Milmoe, C.J.:
    Letter for the Record........................................     9
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Nuclear Energy Institute:
    Letter for the Record........................................    10
Nuclear Engineering Department Heads Organization:
    Letter for the Record........................................    12
Peters, Dr. Mark:
    Opening Statement............................................    34
    Written Testimony............................................    37
    Responses to Questions for the Record........................   152
Purdue University, Nuclear Engineering/College of Engineering:
    Letter for the Record........................................    17
R Street Institute:
    Letter for the Record........................................    18
Risch, Hon. James E.:
    Opening Statement............................................    33
S. 903, the Nuclear Energy Leadership Act........................   119
SMR Start:
    Letter for the Record........................................    20
TerraPower:
    Letter for the Record........................................    22
United States Nuclear Industry Council:
    Letter for the Record........................................    25
X Energy, LLC:
    Letter for the Record........................................    27


                  PATHWAYS TO REESTABLISH U.S. GLOBAL

                    LEADERSHIP IN NUCLEAR ENERGY AND

                       S. 903, THE NUCLEAR ENERGY

                             LEADERSHIP ACT

                              ----------                              


                        TUESDAY, APRIL 30, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here this morning for a dual purpose, to examine 
ways to reestablish U.S. leadership in nuclear energy and to 
receive testimony on S. 903, which is the Nuclear Energy 
Leadership Act, we lovingly refer to it as NELA.
    America has long been a leader in the peaceful use of 
nuclear energy, but over time, our global role has declined. 
Since 2013, seven U.S. reactors have shut down before the end 
of their useful life and more closures are planned.
    Our hopes for a nuclear renaissance, as envisioned in the 
Energy Policy Act of 2005--and I was a member of this Committee 
when Senator Domenici was leading things around here, and we 
talked often about that nuclear renaissance and we were all 
very buoyed and encouraged at that time--but that has really 
paled. We have been reduced to just two reactors currently 
under construction.
    In the meantime, China and Russia have realized nuclear 
energy's immense potential and are now considered the 
international leaders in this space. They are deploying their 
current reactors at rates far beyond the U.S. They are actively 
demonstrating advanced reactor technologies, and they are 
poised to take full advantage of the estimated $740 billion in 
world market growth for commercial nuclear power by year 2030.
    The loss of our nuclear leadership to these competitor 
nations means a degradation of our energy security, our 
economic opportunities, as well as our global security.
    Here in this Committee, we have already held two hearings 
looking at the impact of climate change and particularly on the 
electric sector. But just a recognition that we are focused 
here about ways that we can work within this Committee's 
jurisdiction to lower our emissions and a recognition that if 
you are seeking lower emissions, look no further than nuclear 
energy as part of that energy portfolio mix.
    My Nuclear Energy Leadership Act, which is cosponsored by 
Senator Booker and 16 additional Senators, is designed to 
reposition the United States as the undisputed world leader in 
advanced nuclear technology. It will focus the efforts of the 
Department of Energy on demonstrating advanced reactor 
concepts, establish a high-assay, low-enriched uranium fuel 
program, authorize the versatile test reactor, extend 
university scholarships and fellowship programs as well as 
allow the Federal Government to be an early adopter of advanced 
reactors for national security purposes.
    I would like to thank my colleague, Senator Manchin, also 
Senators Risch, Alexander, and Gardner, among others, for 
cosponsoring this legislation. We have also received letters of 
support from an array of companies and stakeholders, including 
ClearPath, the Nuclear Industry Council, TerraPower, 
Terrestrial, the U.S. Chamber of Commerce. I am going to 
include all of their letters of support as part of the record.
    [Letters of support for S. 903 follow.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
      
    The Chairman. Today's hearing is part of our ongoing work 
on nuclear policy.
    Last Congress, we successfully enacted two nuclear 
measures, the Nuclear Energy Innovation Capabilities Act and 
the Nuclear Energy Innovation and Modernization Act. These 
provide a federal framework for the development of advanced 
reactor technologies.
    And then through the good work of Senator Alexander and 
Senator Feinstein on the Energy and Water Appropriations 
Committee, we have provided greater funding to DOE's advanced 
reactor programs.
    I really appreciate, Senator Alexander, your leadership in 
making that happen on the appropriations side. We all recognize 
that we can do a lot on the authorizing, but if we have not 
worked on the appropriating side it doesn't follow through. So 
your leadership there is greatly appreciated.
    At a hearing earlier this year, we received testimony from 
Dr. Fatih Birol, who is the Executive Director of the 
International Energy Agency, and he spoke on the need for U.S. 
global nuclear leadership. After the hearing, Dr. Birol wrote 
to me in support of NELA. He noted his confidence that the bill 
will help address ``many of the innovation and investment 
challenges that nuclear power currently faces, and boost 
strategic cooperation between the government, private sector 
and academic institutions.''
    So I will also include this letter for the record.
    [Letter from Dr. Fatih Birol in support of S. 903 follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. I am particularly excited about a subcategory 
of advanced reactors that we call the microreactors, which have 
off-grid capability and could help provide clean, affordable 
energy in many of our remote towns and villages.
    Alaskans certainly recognize the potential of this 
technology. The University of Alaska held a stakeholder's 
meeting with nuclear experts in Anchorage just a couple weeks 
ago, and then our State Senate held a hearing on microreactors 
during their legislative session in Juneau just last week.
    As we pursue the future of nuclear energy, it is also 
important that we contend with the Federal Government's failure 
to meet its obligations for spent nuclear fuel. Solving that 
nuclear waste stalemate is a top priority of mine, again 
working with Senator Alexander and Senator Feinstein on this, 
but that is one of the reasons why Senators Alexander, 
Feinstein and myself are introducing today the Nuclear Waste 
Administration Act. Again, we look at how we can advance the 
nuclear opportunities that we have in this country, but if we 
haven't been able to deal with the waste side of it, we know 
that it is going to continue to be a struggle. So I look 
forward to working on that.
    Before I introduce the distinguished panel that we have in 
front of us today, I would like to turn to Senator Manchin for 
his opening remarks and then we will do introductions here.
    Senator Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Chairwoman Murkowski, and thank 
you for having this hearing on advanced nuclear technology 
development, and I want to thank all of our witnesses for being 
here today who will provide us with a comprehensive picture of 
what is needed to ensure that the U.S. is leading the nuclear 
technology race.
    In particular, I would like to thank Mr. McManus, who will 
provide us with the union workforce point of view, a valuable 
part of this conversation today.
    Over the past few months, I have met with several advanced 
energy industry innovators, including Bill Gates. Mr. Gates' 
investment in pursuing advanced nuclear to meet global energy 
needs is a reflection of the enormous potential that nuclear 
power can contribute to our energy future. The private sector 
has already spent about $1.3 billion on advanced reactor 
technology.
    I believe that the Federal Government must lead with the 
private sector, so I am very encouraged by this hearing today.
    Even though we don't have nuclear power in West Virginia, I 
am very proud to be a cosponsor of the bipartisan Nuclear 
Energy Leadership Act, NELA, which currently has 17 Senate 
cosponsors. The bipartisanship behind this bill demonstrates 
our shared values about energy policy. NELA provides a 
pragmatic pathway to finally build advanced nuclear 
demonstration projects, which is a critical step toward 
commercialization that we often struggle with.
    Nuclear power has provided nearly 20 percent of electricity 
generation in the U.S. over the past few decades and currently 
represents about 60 percent of America's carbon-free 
electricity.
    The U.S. had been a leader in nuclear, but in the past 20 
years our hold on that position has been slipping. Advanced 
nuclear commercialization could really change that.
    This technology holds the potential to advance other vital 
policy objectives in our nation's interest, including non-
proliferation and national security, nuclear safety, energy 
security and economic growth and by maintaining our nuclear 
supply chain we can create and maintain high paying 
manufacturing jobs in the U.S. However, to ensure that nuclear 
energy continues to be a viable option, the Department of 
Energy, the national laboratories, universities, unions and 
private industry must all work together.
    The Department of Energy and our national laboratories play 
a central role in leading this effort. If the U.S. wants to 
lead in the global transition to a low-carbon economy, advanced 
nuclear is perhaps the key for leading beyond the electric 
sector and in the heavy industry sector.
    A big part of the carbon conversation that requires more 
attention is the manufacturing sector. Process heat for 
manufacturing chemicals, forest products, iron and steel, 
cement, plastics and rubber products and many other crucial 
products is a major producer of carbon emissions. These 
products require temperatures in the range of 100 degrees 
Celsius to as high as 900 degrees Celsius. Some of these 
temperatures can be reached using today's light water reactor 
technology, but if we are serious about decarbonizing our 
manufacturing sector, advanced nuclear technologies will be 
needed for higher temperature manufacturing.
    Advanced nuclear demonstration projects represent an 
extremely promising opportunity to bring together several 
sectors of the economy to see how nuclear power manufacturing 
technologies can all work together because if we are successful 
in commercializing this technology and bringing it to market 
first, we will be creating jobs right here in the United 
States.
    I know the unions can attest to the fact that the U.S. must 
have the best trained workers in the world, the most advanced 
technology and a superior research, development and 
demonstration nexus in order to maintain manufacturing jobs 
domestically. And as we move forward, we will constantly need 
to be in the lead to maintain jobs here in the United States.
    I am glad that we have union representation on this panel 
today to speak for the working person also. The skilled workers 
that Mark McManus represents are the ones that are actually 
going to be building the technologies we are talking about 
today. If we didn't have the most skilled workers in the world, 
we wouldn't even be having this conversation right now. And I 
think it is important that we spend some of this hearing 
talking about the importance of workforce training in growing 
manufacturing jobs here. Maintaining a skilled workforce is 
also a key to maintaining a current nuclear fleet. A single 
nuclear plant represents as many as 3,500 jobs.
    While today's hearing is focused on advanced reactors, we 
must also recognize the importance of investing in R&D funding 
in our existing nuclear fleet in order to improve the 
operations of these plants and maintain reliability throughout 
our electric sector. For if successful in our advanced nuclear 
efforts, we will lead the way in revolutionizing the large 
parts of the global economy.
    Countries will look to the U.S. for the best materials, 
technology and expertise. That means greater economic security 
and more high paying jobs. We face enormous challenges, but 
there are enormous opportunities here too.
    Once again, I would like to thank Chairman Murkowski for 
holding this incredibly important hearing. I look forward to 
further discussing these topics with each one of you today.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    And thanks to our witnesses for being with us. I think we 
are going to have a good discussion this morning, and I look 
forward to your contributions.
    I will begin with introductions. Dr. Peters, I am going to 
skip over you. We are going to allow my friend and colleague, 
Mr. Risch, to introduce you.
    But we are joined this morning by Dr. Ashley Finan, who is 
the Director of the Nuclear Innovation Alliance (NIA). It is 
good to have you here.
    Maria Korsnick is with us this morning, friend and strong 
fisherwoman, the CEO of the Nuclear Energy Institute (NEI), and 
we appreciate your contributions here this morning.
    Mr. McManus has just been spoken to by my friend here this 
morning. Why am I drawing a blank on your name, Senator 
Manchin?
    [Laughter.]
    Senator Manchin. It happens all the time.
    The Chairman. It is our Monday around here.
    Mr. McManus, as was indicated, is the President of the 
United Association of Journeymen and Apprentices of the United 
States and Canada. We do welcome your perspective this morning 
on behalf of labor. Thank you.
    We are also joined by the Honorable Jeffrey Merrifield, who 
previously served as a Commissioner on the Nuclear Regulatory 
Commission (NRC). He is joining us today as Partner and Energy 
Section Leader at Pillsbury, Winthrop, Shaw and Pitman. We are 
pleased to have you here.
    Senator Risch, I would invite you to introduce our first 
witness here, Dr. Peters.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you.
    Thank you, Madam Chairman, and thank you for holding this 
important hearing regarding the U.S. global leadership in 
nuclear energy and the Nuclear Energy Leadership Act.
    Senator Manchin mentioned having met with Bill Gates. I 
think most of us on this Committee have. I think we all 
recognize Bill Gates is a real visionary. What he and his wife, 
Melinda, have done to, essentially, eliminate polio on the 
planet is nothing short of miraculous. He truly is a visionary. 
One of his visions involves bringing electricity to the billion 
people in the world, the ones that do not have it. He is 
exploring that and doing it the way he always does it, in a 
very commonsense, rational sort of way. He has some ideas, and 
I am sure you found it fun to bounce ideas around with him. It 
is important that as we talk about the U.S. global leadership 
on this issue that he be included in that.
    It is very appropriate that we have Dr. Peters with us here 
today. Dr. Peters, in recent years, has led the Idaho National 
Laboratory (INL). And when we are talking about world and 
global leadership in nuclear energy, it is really appropriate 
that the Idaho National Laboratory and its leader be here.
    Idaho is where it all started. The place where Dr. Peters' 
offices and his laboratory are is where the first electricity 
was generated with nuclear power. We still have the first three 
light bulbs that were lit by nuclear power in the history of 
the world. So when it comes to U.S. leadership, that is very 
important to us in Idaho.
    It has been a privilege working with Dr. Peters over these 
recent years. The Department of Energy has given the lab 
management performance grades of A in all recent years. And 
while Dr. Peters has been in charge of the lab, he also 
exploited the Idaho State Board of Education's buying authority 
to build two new buildings which is, kind of, a view for us for 
the future, the first having to do with cybersecurity and the 
second having to do with advanced computing which we believe 
the Idaho National Laboratory is well poised to lead in these 
areas also.
    In 2017 the INL restarted the TREAT reactor, and this 
reactor was restarted ahead of schedule and under budget. 
Congratulations, Dr. Peters.
    Dr. Peters serves as a Senior Advisor to Department of 
Energy on nuclear energy technologies and research and 
development programs and on nuclear waste policy which has been 
very important to us in Idaho over the years. With that, again, 
I want to underscore the fact that Dr. Peters is the right 
witness to have at this hearing.
    Thank you, Dr. Peters, for being here. Thank you to all of 
the witnesses.
    Madam Chair.
    The Chairman. Thank you, Senator Risch.
    Having had the opportunity to go out and visit Idaho 
National Lab at your invitation and of our leaders there at our 
national labs, it is a trip that is well worth taking and 
really helps put into context all that we are dealing with, but 
all the innovation and just, really, the expertise that goes 
on. So thank you for that introduction.
    With that, Dr. Peters, why don't you begin?
    I would ask each of you to try to limit your comments to 
about five minutes. Your full statements will be included as 
part of the record, but we would like to begin the back and 
forth that we will be able to do once you have concluded your 
introductory statements.
    Dr. Peters, welcome.

   STATEMENT OF DR. MARK PETERS, LABORATORY DIRECTOR, IDAHO 
                      NATIONAL LABORATORY

    Dr. Peters. Thank you. Good morning.
    Thank you, Senator Risch, for the kind introduction and all 
you do, your outstanding leadership, appreciate it very much.
    Chairwoman Murkowski, Ranking Member Manchin and members of 
the Committee, it's an honor and privilege to be with you here 
today. My name is Mark Peters, and I'm the Director of Idaho 
National Laboratory, or INL. I'm grateful for the opportunity 
to testify today on the Nuclear Energy Leadership Act, as 
you've already heard, better known as NELA. And I wanted to 
thank the bipartisan coalition that has sponsored this bill, 
many of whom are represented on this Committee and that also 
includes Senators Risch and Crapo from my home State of Idaho.
    I have submitted testimony for the record, and I will 
summarize it briefly here.
    The United States has for decades amassed an unsurpassed 
record of nuclear reactor safety, security, efficiency, 
reliability, resiliency, and powers nearly one-fifth of our 
nation's electricity system. It also produces, by far, 
America's largest percentage of low-carbon electricity. Nuclear 
energy is one of the most effective tools we have to combat the 
effects of climate change. Moreover, a strong nuclear energy 
industry is an important component in ensuring U.S. national 
security and stabilizes the U.S. power grid and is a major 
driver of the U.S. economy.
    In alignment with the goals of NELA, INL, in partnership 
with our national laboratories and universities, is working 
with the private sector to develop, demonstrate and ultimately 
deploy the next generation of nuclear reactors. The innovative 
design of small modular reactors promises to enhance safety, 
reduce cost and increase adaptability with renewable energy in 
our future energy system.
    Construction on the world's first small modular reactor 
could begin at the INL site in 2023. The new scale power 
reactor could begin producing electricity for the Utah 
Associated Municipal Power Systems utility in 2027.
    Meanwhile, some utilities and the U.S. Department of 
Defense are thinking even smaller. These 2- to 20-megawatt 
microreactors could provide electricity for military bases and 
remote communities among other applications. We are on track at 
INL to develop and demonstrate, in partnership with the Federal 
Government and private sector, a microreactor within the next 
five years.
    Recently, as you are well aware, Congress passed and the 
President passed into law two groundbreaking pieces of 
legislation relevant to nuclear energy.
    The Nuclear Energy Innovation and Modernization Act 
provides the regulatory framework needed to develop advanced 
reactors. The Nuclear Energy Innovation Capabilities Act, or 
NEICA, defines a science and innovation agenda and, among other 
things, calls for establishment of a National Reactor 
Innovation Center to support advanced reactor development and 
demonstration which we see centered at Idaho National 
Laboratory.
    NELA is the third leg of this stool and we strongly support 
the goals of this important legislation, and I want to 
summarize why.
    First, NELA calls for completion of two advanced nuclear 
reactor demonstration projects by the end of 2025 and from two 
to five additional operational advanced reactor designs by the 
end of 2035. We applaud those goals, recognizing they are 
aggressive because they will drive the necessary prioritization 
and strong sense of urgency that we must have. We do need to 
have a robust and transparent process with strong input and 
guidance from the private sector as we select the technologies 
and designs to be demonstrated, accounting for factors such as 
economics, technology maturity, potential markets and many 
other factors.
    Second, NELA, along with NEICA, includes authorization of a 
versatile, reactor-based fast neutron source, or what we call 
the Versatile Test Reactor, to support testing advanced fuels, 
materials, instrumentation and sensors. Consistent with NEICA, 
U.S. DOE has approved a Critical Decision 0 (CD-0) for the 
Versatile Test Reactor identifying the mission need and 
initiating work on conceptual design, management plans and 
further refined cost and schedule estimates.
    Third, NELA allows the Federal Government to partner with 
industry and demonstrate and deploy new nuclear energy 
technologies by authorizing long-term power purchase 
agreements.
    Fourth, NELA addresses a fuel supply issue that threatens 
to limit deployment of advanced reactors, that is, the need for 
high-assay, low-enriched uranium, better known as HALEU.
    Finally, NELA seeks to ensure that a highly skilled world-
class workforce is available to enable the next generation of 
nuclear reactors. The universities are vital to this and the 
nation's broader nuclear energy mission.
    So in summary, as the nation's nuclear energy laboratory, 
INL feels a special responsibility to enable a nuclear energy 
future and move forward urgently to demonstrate advanced 
reactor technologies.
    I am optimistic we will succeed because of the innovation 
coming out of our labs, universities and the private sector. I 
am also optimistic because of the bipartisan support that we 
see for nuclear energy here in Washington and in states across 
the nation. And I am optimistic because the historic 
partnership between government and industry has laid the 
foundation for our success. We have done this before.
    Thank you for your attention to this important issue, and I 
look forward to answering your questions.
    [The prepared statement of Dr. Peters follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. Dr. Peters, thank you very much.
    Dr. Finan, welcome to the Committee.

 STATEMENT OF DR. ASHLEY E. FINAN, EXECUTIVE DIRECTOR, NUCLEAR 
                      INNOVATION ALLIANCE

    Dr. Finan. Thank you.
    Chairman Murkowski, Ranking Member Manchin and 
distinguished members of this Committee, thank you for holding 
this hearing and for giving me the opportunity to testify.
    I am honored to be here today. My name is Ashley Finan, and 
I'm Executive Director of the Nuclear Innovation Alliance. The 
NIA is a non-profit think tank dedicated to supporting 
entrepreneurialism, accelerated innovation and 
commercialization of advanced nuclear energy to address global 
energy needs.
    In the United States and elsewhere dozens of innovative 
companies are pioneering advanced nuclear designs but take 
advantage of decades of technological progress and experience. 
Innovators are focusing on better meeting the needs of 
traditional markets through reduced costs as well as meeting 
the needs of new markets, including microgrids that power 
remote communities, secure power for critical infrastructure 
and grids with high penetration of renewable energy.
    The private sector-driven innovation that we are seeing 
today is sorely needed and long overdue, and it presents the 
United States with an opportunity to regain lost leadership in 
nuclear energy. U.S. nuclear energy leadership is important for 
geopolitical and environmental reasons. It can be restored, and 
the Nuclear Energy Leadership Act would help make that 
possible. My written testimony covers these topics in greater 
detail.
    Scholars predict we'll see major changes in energy 
geopolitics as we move toward a decarbonized energy system. 
Nuclear energy will have strategic import partly because it 
compels technological dependence that is more enduring than 
that of oil or gas. Nuclear plants in Hungary, Slovakia, 
Bulgaria and the Czech Republic that have lifetimes of 40 to 80 
years can only be fueled by a single Russian company.
    Some figures comparing nuclear to oil and gas markets are 
illustrative. Eighteen countries account for 90 percent global 
oil and gas supply with Saudi Arabia supplying 19 percent of 
internationally-traded crude oil and Russia supplying 20 
percent of gas as of 2016. By comparison, just six countries 
account for 90 percent of nuclear technology supply, and Russia 
is the supplier in 46 percent of nuclear technology agreements 
while the U.S. is a supplier in 10 percent.
    Past participation in nuclear markets gave the U.S. 
leverage in influencing global non-proliferation safety and 
security norms. If we are not a major supplier, we cede that 
influence.
    Last Wednesday the Nigerian Minister of Defense asked 
Russia to help Nigeria build pipelines, railways and nuclear 
power plants. This is just one example of what seems like 
weekly news of Russia's prominence.
    Russia and China are thinking and acting strategically. 
They have the capacity and the will to bundle generous 
financing with nuclear deals. Where the United States excels is 
in innovation. We have the best innovators, labs and private 
investors. Moving that innovation to commercialization provides 
us with an opportunity to compete if we complement it with 
supportive policy.
    As a non-emitting energy source, nuclear energy delivers 
cleaner, healthier air. To mitigate the consequences of climate 
change, we need to decarbonize global economies. Studies show 
that the most affordable pathways to deep decarbonization 
consistently include firm, low-carbon resources like nuclear 
energy and that our odds of success improve with a balanced 
portfolio that includes nuclear.
    We also know that nuclear can scale quickly. Based on 
nuclear energy, France achieved 80 percent electricity 
decarbonization in under two decades.
    Many are doubtful about our ability to develop the 
technology fast enough, but history counsels us to be more 
hopeful. We have not done this recently, but we have done this 
before.
    The Electric Power Research Institute found that the two 
types of reactors we operate here in the U.S. were fully 
commercialized in 15 years and 13 years, respectively. Working 
with private industry, the Atomic Energy Commission 
demonstrated about a dozen plants in as many years covering 
eight technologies for $4.3 billion, including 66 percent 
industry cost share. But we've learned a lot since then, and we 
can more effectively harness the power of the market on the 
private sector.
    A forthcoming report from my organization will suggest 
specific improvement approaches that would use insights from 
the NASA Commercial Orbital Transportation Services program, 
the program that helped elevate SpaceX to its current 
notoriety.
    The United States should redouble efforts to commercialize 
scalable, affordable and unparalleled nuclear power. We see the 
private sector pursuing bold ideas and they need government to 
join and support them with the spirit of the Atoms for Peace 
era but with the benefit of decades of advancement in 
technology and policy.
    NELA could do just that. NELA's goals are specific, 
measurable, ambitious and if they are coupled with private 
sector action and complementary policies, NELA's goals are 
achievable. The NIA supports the Nuclear Energy Leadership Act 
and applauds its cosponsors for their initiative and 
commitment.
    Thank you for this opportunity to testify. I would be 
pleased to respond to any questions you might have today or in 
the future.
    [The prepared statement of Dr. Finan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you, Dr. Finan. I apologize for 
mispronouncing your name several times here this morning.
    [Laughter.]
    We will look forward to the specific----
    Senator Manchin. At least you didn't forget it.
    The Chairman. Yes, at least I didn't forget it, thank you, 
Senator Manchin.
    [Laughter.]
    We will look forward to those specific recommendations 
coming out of that report.
    My friend here--Ms. Korsnick, welcome to the Committee.

STATEMENT OF MARIA KORSNICK, PRESIDENT AND CEO, NUCLEAR ENERGY 
                           INSTITUTE

    Ms. Korsnick. Great, thank you.
    Thank you, Chairman Murkowski, Ranking Member Manchin and 
members of the Committee. Thank you for the opportunity to 
appear before you today.
    I'm Maria Korsnick, President and CEO of the Nuclear Energy 
Institute with 33 years in commercial nuclear experience.
    I thank you for the continuing focus on nuclear energy and 
specifically, today, the next generation of nuclear, carbon-
free power in America. I sincerely appreciate the overwhelming 
bipartisan support that we saw last Congress for the Nuclear 
Energy Innovation Capabilities Act as well as the Nuclear 
Energy Innovation and Modernization Act. Both of these will 
help ensure the United States remains a global leader of 
nuclear innovation.
    America's nuclear industry is at a crossroads. We urgently 
need tangible actions from Congress that it values nuclear, 
carbon-free power. This is not a partisan issue. Republicans 
and Democrats recognize that nuclear energy is a critical 
national asset to provide clean, reliable and affordable 
electricity to Americans. And yet, right now 12 nuclear 
reactors are slated for premature closure nationwide. If that 
happens, it will take offline enough electricity to power 8.6 
million homes. That's almost as many homes as in all of Alaska, 
West Virginia, Tennessee and Michigan and a massive quantity of 
clean, carbon-free energy. And remember, once a nuclear plant 
is shut down it can't be put back online. It's lost for good.
    Now is the time to preserve the existing fleet. Extend a 
plant's life span to 80 years through second license renewal 
applications and grow our nuclear energy fleet through new 
build. When America leads, we help set the global standards for 
safety, for preventing proliferation and we create hundreds of 
thousands of American jobs.
    But the fact is today we are ceding our global leadership 
in a technology that we invented. Right now, 55 reactors are 
under construction nationwide, excuse me, worldwide. Nearly two 
out of every three reactors are being built by either Russia or 
China. Failure to lead the next wave of global nuclear 
construction means significantly diminished ability to promote 
U.S. safety standards, operational excellence, non-
proliferation and security norms around the world. Simply put, 
U.S. influence grows when we have a strong, civil nuclear 
industry.
    The Committee gets that. You understand that while the 
fleet of today is America's emission-free workhorse, the 
reactors of tomorrow will be even safer and more innovative. 
But to get there, we need help and help of this Committee. The 
bipartisan Nuclear Energy Leadership Act is a great start. NELA 
does many things. I'll focus on just a few.
    First, it authorizes the funding of nuclear reactor 
demonstration projects. The United States simply must build. 
Over the last three decades of the 20th century, the U.S. built 
113 commercial reactors. In the 20 years following those 
builds, we are on pace to complete only three more, one 
recently brought on in Tennessee and two nearing completion in 
Georgia. There are dozens of U.S. companies developing designs 
to meet the anticipated market needs. This is great news. But 
if we want to lead the world in nuclear technology, we need to 
build plants. The demonstrations authorized in NELA will be the 
catalyst to construct advanced reactor designs that the United 
States, not Russia, nor China, can offer the world to address 
climate change.
    Second, the bill calls for the Federal Government to 
establish a pilot program to enter into power purchase 
agreements with an advanced nuclear reactor. It extends the 
maximum length of these agreements from 10 to 40 years. These 
changes in the law will help ensure innovative, new reactors 
are built.
    Finally, the Committee understands many of these advanced 
reactor designs require high-assay, low-enriched uranium. In 
plain speech, the uranium of our current fleet is enriched to 
about 5 percent. Many advanced designs will need about 20 
percent.
    Our nation needs the capability to provide this fuel, and I 
appreciate the pragmatic approach that this bill takes to 
ensuring that the fuel will be made available when needed in 
the next few years.
    Of course, being a world leader in the management of 
nuclear fuel is important at all points in the nuclear value 
chain, and our nation's used fuel policy is an area where we 
need U.S. leadership and resolution. I sincerely appreciate the 
Senate's efforts to resolve this critical issue, and I remain 
committed to working with you.
    Nuclear, carbon-free power has always answered the call of 
this nation. It powers our homes, our businesses, our Navy. It 
enables deep space exploration. It solves medical challenges. 
It helps fund schools and essential services in local 
communities across our country. And as our focus on climate 
change becomes more intense, the nuclear industry provides a 
critical, carbon-free energy solution.
    I look forward to working with you to ensure that this 
American technology continues to provide these essential 
benefits. The future we need cannot happen without nuclear. 
Your help, your active support is urgently needed.
    Thank you and I look forward to your questions.
    [The prepared statement of Ms. Korsnick follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you, Ms. Korsnick, we appreciate that.
    Mr. McManus, welcome.

     STATEMENT OF MARK MCMANUS, GENERAL PRESIDENT, UNITED 
 ASSOCIATION OF JOURNEYMEN AND APPRENTICES OF THE PLUMBING AND 
 PIPE FITTING INDUSTRY OF THE UNITED STATES AND CANADA, AFL-CIO

    Mr. McManus. Good morning, Chairman Murkowski, Ranking 
Member Manchin and members of the Committee. Thank you for the 
warm welcome.
    My name is Mark McManus, and I'm the General President of 
the United Association, or the UA, which represents America's 
union plumbers, pipefitters, welders, sprinkler fitters and 
HVAC service technicians. On behalf of more than 350,000 men 
and women members of the UA, I want to thank you for the 
opportunity to testify about the future of the U.S. nuclear 
power and the Nuclear Energy Leadership Act.
    Whether they're working on a job or volunteering in their 
communities, UA members, like most Americans, take a fact-
based, commonsense approach to everyday problems. That is 
precisely the approach that this country needs when it comes to 
nuclear energy. Quite simply, any fact-based, commonsense 
approach to meeting our future energy needs while addressing 
climate change must include major investments in nuclear 
energy.
    It is well past time that we turned the page on any 
lingering irrational fears of carbon-free energy source that 
already provides 20 percent of our electricity and hasn't 
injured or killed a single person in more than a half a century 
we've consumed it.
    The truth is that nuclear energy is already safe, cost-
effective, and reliable, and the development of advanced 
technologies made possible by NELA would make it even more so.
    In my view, the success of NELA and the nuclear industry 
depends not only on well-trained nuclear engineers and 
scientists, a focus of NELA, but also well-trained building 
trades craftspeople to build and maintain the nuclear 
facilities themselves. In fact, one of the major reasons for 
the industry's excellent safety record is the top-notch 
training of the UA and other craftspeople that work on nuclear 
facilities.
    We spare no expense when it comes to the skill 
developments. Through collectively bargained contributions to 
joint trust funds, the UA and our signatory employers invest 
over 220 million private, non-tax paying dollars each and every 
year in training. A sizable portion of this is devoted to the 
UA members working in the nuclear industry.
    Since the mid-'80s, the UA and other building trades unions 
have worked closely with the nuclear utilities to ensure that 
our members are trained to specific needs of the industry. I 
discuss this partnership further in my written testimony. 
Overall, it's been a great success.
    Project labor agreements, or PLAs, are another tool used by 
nuclear utilities to protect their investments and ensure 
safety and success on their projects. PLAs cover over 80 
percent of the U.S. reactors currently in operation and, as 
explained in my written testimony, they meet a number of 
critical needs for the utilities. The Federal Government would 
be well-served to protect its own investments by demanding PLAs 
on any projects made possible by NELA.
    Although the energy and the environmental benefits of 
investing in nuclear are appropriately front and center, the 
tremendous economic benefits generated by these investments 
should not be overlooked.
    For a real-time example of job-creating potential of 
nuclear power look no further than the ongoing work on two 
nuclear reactors at Plant Vogtle in Georgia. At this very 
moment there are 7,000 workers on the project, and when 
construction reaches its peak that number will rise to 9,000 
workers. Senators, these are well-paying clean energy jobs 
Americans have been waiting for.
    Let me close by offering one last recommendation to the 
Committee. Don't stop at NELA. Nuclear energy has the potential 
to substantially improve our energy security, dramatically 
reduce our carbon footprint and deliver enormous benefits to 
our country. However, to fully realize that potential I believe 
we need to take a hard look at every reasonable opportunity to 
expand nuclear power. This includes encouraging the development 
of new plants and units through commonsense reforms to 
permitting and readily available loan guarantees. And it also 
includes taking action to prevent unnecessary or premature 
closure of existing plants and units.
    Thank you again for the invitation and the opportunity to 
testify.
    [The prepared statement of Mr. McManus follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. Thank you, Mr. McManus.
    Mr. Merrifield, welcome.

 STATEMENT OF HON. JEFFREY S. MERRIFIELD, FORMER COMMISSIONER, 
  U.S. NUCLEAR REGULATORY COMMISSION, AND PARTNER AND ENERGY 
      SECTION LEADER, PILLSBURY WINTHROP SHAW PITTMAN LLP

    Mr. Merrifield. Chairman Murkowski, Ranking Member Manchin 
and members of the Committee, it is a pleasure to be here 
today.
    My name is Jeff Merrifield, and I'm testifying as a partner 
in the nuclear energy practice of Pillsbury Law, the world's 
oldest and largest nuclear firm. Additionally, I am Chairman of 
the Advanced Reactor Task Force for the Nuclear Industry 
Council, a member of the Board of ClearPath, and I am Chairman 
of E4 Carolinas, a 150-member energy association in North and 
South Carolina. I also advise Mark Peters with the GAIN 
program. That said, the comments today are my own.
    I'm pleased that the Committee supports the development of 
advanced nuclear reactors. My testimony will focus on S. 903, 
the Nuclear Energy Leadership Act, the state of the advanced 
nuclear industry and opportunities for U.S. nuclear exports.
    First, my punchline. I believe S. 903 is an excellent piece 
of legislation that will incentivize the development and 
deployment of advanced nuclear reactors in the United States 
and create a vibrant export market. It will enhance the ability 
of the U.S. to regain its leadership role in international 
nuclear commerce and will create thousands of lifelong, well-
paying careers for blue- and white-collar workers.
    S. 903 will provide economical, safe, clean energy options 
and allow us to meet vitally important carbon reduction and 
energy security objectives.
    As it relates to Section 7 of the bill, the development of 
advanced reactors brings with it many benefits but the fuels 
used to operate these reactors will be of a greater variety in 
their form and composition. Most of these designs will use high 
enrichments of uranium, typically between 8 and 19.75 percent, 
otherwise known as HALEU. In comparison, the current reactors 
use uranium enriched between four and five percent.
    As domestic supplies of HALEU do not currently exist, 
appropriate sources of this material will need to be identified 
or created. This includes the means to enrich uranium as well 
as transport and manufacturing.
    The FY'19 Energy and Water Appropriations legislation 
helpfully included $20 million to begin processing used Navy 
spent fuel into HALEU. While important, the process the DOE is 
developing in Idaho may result in HALEU that contains residual 
radionuclides that may not be fully acceptable for some 
designs.
    Additionally, the Department of Energy intends to award a 
contract to Centrus Energy to construct a 16-centrifuge cascade 
by 2020 to produce a small amount of HALEU. In parallel, Urenco 
has indicated it's considering adding a HALEU cascade to its 
enrichment facility in New Mexico.
    While these steps are positive, Section 7 of the bill would 
set specific targets for DOE to make HALEU available, two 
metric tons by 2022 and ten metric tons by 2025. This provision 
is vitally needed to ensure that our advanced nuclear 
innovators are not held back by the inability of the market to 
timely supply this material.
    The power purchase agreement (PPA) language included in 
Sections 2 and 3 will serve as a catalyst for advanced 
reactors. These PPAs create a financeable funding stream to 
incentivize investors on both the debt and equity side. When 
combined with investment or production tax credits, these can 
be enormously helpful in spurring private capital investment.
    I strongly endorse Section 4 which authorizes a series of 
DOE advanced reactor demonstration projects. Under these 
provisions not fewer than two advanced reactor designs would be 
funded and completed by the end of 2025 and at least two and 
potentially five additional designs would be funded and 
completed by 2035.
    Section 4 would also allow the demonstration of non-
traditional users of nuclear reactors, including petrochemical 
processing, water desalinization, industrial scale hydrogen as 
well as potential uses in mining and powering remote 
communities. All of these create significant opportunities for 
exports and job creation.
    I support the language included in Section 8 regarding the 
University Nuclear Leadership program and the funding it will 
provide for our nation's nuclear engineering programs.
    On a personal note, I'm very pleased today that you invited 
Mark McManus to testify. As you see, my oldest son, Graham 
Merrifield, is a member of the United Association and is a 
pipefitter apprentice in the Concord, North Carolina branch of 
Local 421 where he's aspiring to become a nuclear pipefitter 
and welder and hopes to build advanced reactors.
    Like their white-collar colleagues, the pipefitters, 
welders, electricians, plumbers and others who build and 
maintain nuclear plants are also an aging workforce. As this 
legislation continues to move swiftly toward adoption, I would 
urge the Committee to consider measures to ensure the steady 
supply of qualified technicians and craftspeople for this 
industry.
    In conclusion, the companies and people who are developing 
advanced nuclear reactors will enable the United States to 
regain a leading role in the international nuclear export 
market. S. 903 is an excellent step toward ensuring that the 
U.S. remains a leader in nuclear technologies, and I urge its 
prompt adoption by this Committee as well as the appropriations 
needed to make it a success.
    Thank you for allowing me to testify.
    [The prepared statement of Mr. Merrifield follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you, all, we appreciate that. I really 
appreciate the positive encouragement that you have given for 
NELA.
    I am going to ask a question, and this goes out to the 
whole panel here. You have all said, again, good, strong things 
about it. When you think about what we have done from a 
legislative perspective with the passage of NEICA and then the 
Nuclear Energy Innovation and Modernization Act, now we have 
NELA before us. What more needs to be done to really realize 
this nuclear renaissance that we talk about in, and again, 
these almost aspirational types of a reference?
    Contained within NELA we have some pretty ambitious goals 
with the direction to DOE to get the demonstration of two 
reactors by 2025 and the demonstration of at least two 
additional ones by 2035. The question to you all is, is what we 
are doing within this legislation sufficient to demonstrate the 
representative technologies, the breadth of the innovative 
advanced reactor concepts? What more do we need to be doing in 
order to get where, I believe, all of us are hopeful? I throw 
that out to any one of you.
    Mr. Merrifield? Go ahead and push your button.
    Mr. Merrifield. Senator, thank you very much.
    The Chairman. Yes.
    Mr. Merrifield. I'll take the first crack at that.
    As I said before, I strongly endorse this bill and I think 
this Committee, in this legislation, is doing a significant 
amount to really move the ball forward.
    That said, you asked what else could be done? A lot of it 
results in activities outside of the scope of this Committee's 
jurisdiction--appropriations. You know, the framework that you 
put into this bill is vitally important. We need to pass it but 
we need to provide the funding to allow those demonstration 
reactors to be built.
    The Chairman. So it is very important that Senator 
Alexander is here today.
    Mr. Merrifield. Very important that Senator Alexander is 
here.
    The other thing, I think, which is important are export 
tools, making sure that the EXIM Bank is fully brought up to 
speed and can use its resources to help in the export of these 
technologies is vital. The overseas OPEC that has now been 
reauthorized under the BUILD Act, it's very important that the 
limitations in that organization, that prohibit the use of 
their funding for U.S. nuclear exports, be removed. That is 
something that Congress really needs to take a look at.
    The Chairman. Dr. Peters?
    Dr. Peters. I agree with everything that Jeff alluded to.
    From an authorization perspective I think the three--NEICA, 
NEIMA and now NELA--cover the landscape as I mentioned. Also, 
appropriations needs to follow as Jeff already said.
    But I would also bring up--I think we've got to go do now. 
We've got to figure out, okay, so, it enables a public-private 
partnership but I think there's a lot of details that have to 
be worked out about what is the role of the government and what 
is the role of the private sector. And that's something--you've 
laid the authorization framework for that. I think now the 
agency, the department, the labs and the industry now need to 
go figure out what that looks like. And also, going and 
establishing the infrastructure to actually create the 
feedstock for high-assay, low-enriched uranium and actually 
fabricate fuel.
    So I would say you've done your job. Now appropriations 
follows and now the community needs to come together and go do 
it.
    The Chairman. Let me ask you, Dr. Peters. Your national lab 
is helping the Department of Energy work with DoD on the 
potential microreactor applications for military installations. 
This is something that we are looking at with great, great, 
great interest. Can you give me a little bit of update on how 
is this joint DOE/DoD program going and is there anything that 
we can do outside of passing NELA that would perhaps strengthen 
this partnership?
    Dr. Peters. Yeah, so DOE and DoD are actively 
communicating. DOE has appropriations from Energy and Water to 
work in the microreactor space. And so, that's being leveraged 
to work with DoD. I would say that it's working.
    DoD had gone out with a request for information. That's 
filed with an RFP. There's multiple companies that have 
expressed interest that are pursuing it.
    My lab and a couple other labs are actively involved with 
the proper controls and NDAs in place, working with a lot of 
those players. And every company that's pursuing the 
opportunity doesn't need the same thing, some need technical 
support, some need a site, some need fuel. So we're basically 
opening up our doors to whatever they need. But I would say 
it's moving along well. It always goes back to appropriations.
    The Chairman. Right.
    Dr. Peters. On the DoD side as well.
    The Chairman. Thank you for that.
    Let me turn to Senator Manchin.
    Senator Manchin. Dr. Peters, let's start with you again on 
this.
    My concern is, as far as the world is going to be, I think, 
turning more to nuclear for--it's the quickest way to be 
carbon-free--and then carbon capture, utilization which Dr. 
Birol has talked about.
    But my concern is with China and India and, as we 
commercialize this information, illicit proliferation may take 
place. I have reservations about how to best protect our 
intellectual properties as we do that. And as you know, we have 
had many concerns about that.
    I would like to see what your thoughts are on how we 
balance our security and non-proliferation interests, in 
particular, U.S. intellectual property (IP), while exporting 
our U.S. nuclear technology and materials as we move forward 
developing a carbon-free world?
    Dr. Peters. Yes, sir. Thank you, Senator.
    Well first, I would reemphasize the point that the way, an 
important way to establish U.S. leadership, and you heard that 
from Ashley, in particular, is that the ability to export U.S. 
technologies and know-how and regulatory framework and non-
proliferation standards is an important part of our leadership. 
So, and it is a global market, as you know, so we're going to 
have to play in that global market. And to stay at the table, 
we have to be playing in that market.
    However, I totally agree and the labs are actively working 
with DOE as we speak to protect not just the nuclear space but 
more broadly, economic security, battery technology, you name 
it, computing technology. And so, we're actively putting 
controls in place, working with DOE, the labs and DOE, to make 
sure that we're protecting it properly. And that's something 
that's, again, a very urgent, very important need and we're 
taking it very seriously.
    But also, I would remind you also that the nuclear 
framework, the civil nuclear framework, is controlled very--by 
non-proliferation agreements we call 123 Agreements between 
countries. So if we're going to do business with a country, the 
U.S. does business with a country, it's controlled very 
strongly by those frameworks that we have in place with those 
countries.
    So, there's this, it's a fine line we have to walk, sir, 
but we have to play in the global market in order to be a 
leader.
    Senator Manchin. Thank you.
    Mr. McManus, if you can talk to me about, as we grow older, 
we have an awful lot of people in all types of industries that 
are retiring and I think that Mr. Merrifield spoke about that 
also. Do you think we're going to have a challenge as far as 
having a workforce that is capable of meeting the growth of the 
advanced nuclear industry? I am going to talk with Ms. Finan 
next about how the environmental communities are looking toward 
decarbonizing and using carbon capture, sequestration, knowing 
the world is going to be using more fossil and nuclear as a way 
to decarbonize.
    I am concerned about the workforce and if we are training 
them, having the ability to get up to speed quick enough to 
replace the projected retirements.
    Mr. McManus. Yeah, it's an excellent question, Senator. And 
I think the United Association is not immune from the baby 
boomer generation exiting all industries of the United States.
    I'm here to tell you proudly, we're 130 years old as of 
October. There's a lot of iconic businesses in America that 
haven't lasted 130 years, and right at this moment we have the 
largest workforce we've ever had in 130 years.
    We've been growing for the last five years. We have 353,965 
people growing at about 700 to 800 members a month. Active to 
retirees is a growing demographic that we look at through our 
pension funds, and we are continuing to lower the retiree to 
act. So we're a prosperous growing organization and that's due 
in part to national recruitment as well as our devotion to 
training, $220 million in private sector that I put in my 
public testimony that we spend on training.
    We are also moving into virtual reality, augmented reality. 
We're reaching out to nationwide groups: Skills America, Women 
in the Trades from the national building trades, national high 
school and career counselors, vo-techs, for-profit welding 
schools, the Boy Scouts, the Girl Scouts. So we are continuing 
to reach out to each and every avenue and competing against a 
lot of industries in the United States and worldwide of what we 
can do.
    But as we are sitting here right at this moment, we're 
meeting the needs. We have 1,500 UA members at Plant Vogtle 
which is a little bit of a remote spot in rural Georgia--
Augusta, Georgia--and we've met every man power need that we 
need to make with commercial work and good work across the 
country as well too. So we have a very, very skilled workforce 
and a growing workforce.
    Senator Manchin. Great.
    Mr. Merrifield. Senator, if I can just add?
    Senator Manchin. Sure.
    Mr. Merrifield. I was a proud parent. My son went through 
the training program that Mike's folks have, and it was an 
excellent program. It really, they do a terrific job----
    Senator Manchin. The apprenticeship?
    Mr. Merrifield. ----of preparing people for 
apprenticeships.
    The other thing I would mention, you know, United also 
represents Canada and there are two major nuclear refurbishment 
programs in Canada at the Bruce and Darlington sites. The total 
of those two nuclear programs will be about $20 billion over 
the next ten years, and a significant number of folks from 
Mike's union will be involved in helping get those, keep those 
plants, nuclear plants online as well.
    Senator Manchin. Thank you very much, Madam Chairman.
    The Chairman. Thank you.
    Senator Alexander.
    Senator Alexander. Thanks, Madam Chairman, and thanks to 
you and Senator Manchin for your leadership in this area and so 
many different ways and your participation on the 
appropriations process where you are a member as well.
    You all have said, and I agree, if we don't do something 
soon nuclear power will not have a future in the United States. 
I was doing a little math, which I think I was pretty close, 
showing that nuclear is 60 percent of our carbon-free 
electricity, solar is 4, wind is 20. We know 12 reactors are 
closing. We would have to triple solar power and take up wind 
power by 50 percent to replace them.
    Or let's look at it another way. We've got only 6 of our 
90-plus reactors that have asked to extend for 20 more years. 
If half of them did for 20 more years, that would be the same 
thing as ten times the amount of solar power we have and 
doubling the wind power we have.
    So it is pretty clear that is not going to happen. If we 
don't have nuclear, we know what will happen is we will have to 
rely on fossil fuels. It will be coal or natural gas, period. 
Wind and solar cannot replace it.
    How do we know that? Well, we know other manufacturing 
countries in the world have had a similar experience. Germany 
cut in half its nuclear power, 25 to 12 percent. They had to 
replace it with coal and wind, and they have the highest 
electricity prices in the European Union which is not a good 
place to be if you are a manufacturing country in world 
competition and we are a manufacturing state in Tennessee. Or 
Japan, they have gone from 30 percent to 2 percent of their 
power nuclear. Their electricity prices are up 56 percent, and 
they are importing natural gas. So that is the problem, and the 
bill that Senator Murkowski is leading offers a solution.
    I proposed a new Manhattan Project for clean energy with 
ten grand challenges for the next five years which would double 
our energy research funding which is about $6 billion through 
the Office of Science in the Department of Energy. And among 
the various challenges, natural gas, carbon capture, better 
buildings, better batteries--greener buildings, I meant--
electric vehicles, cheaper solar, fusion, advanced computing, I 
put advanced reactors first.
    So my question is a money question with a specific angle to 
it. How much are we talking about or who is going to tell us 
and when the kind of partnership that the Federal Government 
should engage in with the private sector to do that and 
wouldn't the long-term power purchase agreements be among the 
most important things we could do because we can, we are 
appropriating $100 million, $110 million I think, for advanced 
reactors, $100 million for small modular reactors?
    So getting that number up to a direct appropriation that 
would be enough to fund two to five new advanced reactors by 
2035 or one or two by five more years, is going to be a pretty 
heavy lift, except the long-term power purchase agreements by 
the government. Wouldn't that be the most useful way to 
encourage the private sector to spend a lot of money on 
advanced reactors? Mr. Peters or Ms. Korsnick?
    Ms. Korsnick. Yeah, I guess I'll start. Thank you, Senator, 
a good question and you're absolutely right with the statistics 
that you shared.
    And I agree with you that the long-term power purchase 
agreements are a significant encouragement to build. They 
provide that revenue certainty for somebody that's building a 
large project going from the 10-year to the 40-year provision. 
And quite frankly, that makes the business case. And so, I 
think it's a huge step forward to go with the power purchase 
agreement.
    Senator Alexander. Well, the legislation, proposed 
legislation, says one or more power purchase agreements. Would 
you think it might say two or more or three or more to be more 
specific or am I heading down the wrong track there?
    Ms. Korsnick. Yeah, the more the better.
    Senator Alexander. Anyone else?
    Dr. Peters. Yeah, I would say to that last point, I would 
say as many as there are demonstrations because to me the 
demonstrations all need to have the ability to go into a PPA, a 
power purchase agreement, because I do agree with you, it will 
enable it.
    Sir, as you well know, and I'm going to--each demonstration 
is in the small billions but that doesn't say it's all Federal 
Government outlay. The question that I raised earlier is the 
private sector and the public sector have to come together and 
come back to you with this is the model and this is cost 
estimate.
    And we've looked at this enough to know that it's in that--
--
    Senator Alexander. I will conclude my comments because I am 
over time, but if we are spending $6 billion on energy research 
at the Department of Energy and advanced reactors and we are 
only spending $110 million on advanced reactors and $100 
million on small reactors, getting to the small billions per 
advanced reactor is a pretty heavy lift for direct federal 
appropriation.
    Dr. Peters. Yes, sir.
    Senator Alexander. So I am looking for a way for the long-
term power purchase agreement to provide sufficient incentive 
to the private sector to spend more of the money so that we are 
being realistic about the amount of money that we can 
appropriate through our appropriations.
    Mr. Merrifield. Senator, just very briefly.
    I mean, I agree with Mark. I think it's got to be more than 
one. If you have just one, I think you get into the issue of 
the government picking winners and losers but I think a 
combination of government investment on a series of 
demonstration projects, on having the PPA program which is 
enormously valuable.
    And I would note, you know, the wind and solar industry 
benefit enormously from investment in production tax credits. 
Having those tools available as part of the overall portfolio 
of tools for the deployment of advanced reactors will bring the 
private capital necessary to get these plants built.
    The Chairman. Thank you, Senator Alexander, very important 
questions here for purposes of where we are right now.
    Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Mr. Merrifield, I want to go back to your testimony 
regarding Urenco USA. Obviously, that plant currently is the 
nation's only NRC-licensed commercial uranium enrichment 
facility. And you were talking about the need for HALEU. Do you 
think that Urenco's plant should be considered as a potential 
near-term option to provide HALEU for future advanced reactors?
    Mr. Merrifield. Certainly, it is among the places that 
should be used for that. They have the capability to expand 
their operations at that facility. Obviously, Urenco has a long 
and well-regarded role in providing enrichment services.
    I would note the bill also conceptualizes the need for 
meeting the U.S. Government needs for these high enrichment and 
high enriched fuels. That is a capability that Urenco would not 
be able to----
    Senator Heinrich. Sure.
    I am talking about specifically on the commercial market.
    Mr. Merrifield. Yeah, the commercial market, certainly that 
Urenco facility would be appropriate. I would note it would be 
important for the industry to have more than one source of that 
so it's not leaving us at risk.
    Senator Heinrich. Sure, right.
    Ms. Korsnick, can you elaborate a little more on the issue 
you raised regarding second license renewals and, in your view, 
what are the safety bounds for license renewals and does that 
require statutory change?
    Ms. Korsnick. So, second license renewals are in process 
right now. Some plants have put in an application to the 
Nuclear Regulatory Commission. They did so last year. So it's 
in process right now with the NRC. We expect in the next year 
or so for them to pass judgment on those applications. There 
are no scientific reasons----
    Senator Heinrich. Those are 20-year extensions, is that 
correct?
    Ms. Korsnick. That's correct.
    Senator Heinrich. Okay.
    Ms. Korsnick. And there's no road block for that, it 
doesn't seem.
    Senator Heinrich. And a number of----
    Mr. Merrifield. Senator?
    Senator Heinrich. Yes----
    Mr. Merrifield. I was just going to say, I was a 
Commissioner in the NRC.
    Senator Heinrich. ----I will let you jump in in just a 
second.
    You go ahead, and then I will add what I was going to add.
    Mr. Merrifield. I was just going to add, I was a 
Commissioner at the NRC when we did the first round of those 
license renewals. I think that there is no reason why virtually 
every U.S. reactor couldn't extend a further 20 years, and I 
think the NRC is putting in place a process and that could 
happen.
    Senator Heinrich. So that seems like an obvious place for 
where we could make a difference in terms of making sure we 
don't bring, take carbon-free energy offline.
    I had another question there and I have just lost it, I 
apologize.
    Ms. Korsnick. That's okay. Let me just add to your point.
    Senator Heinrich. Yes.
    Ms. Korsnick. Conceptually, that makes a lot of sense. But 
if plants right now are being threatened in the marketplace, 
that's what shut those down.
    Senator Heinrich. That was exactly where I was going to go 
into. So a number of those plants who would be up for those 
renewals have chosen not to do so.
    Ms. Korsnick. That's correct.
    Senator Heinrich. That is a cost issue from what I 
understand. That is what I want to bring up for all of you to, 
sort of, jump into here is that it seems to me that the 
elephant in the room here and the thing that we have not talked 
about and the math that we have not talked about is price, both 
the price to create a new unit, and we are seeing prices like 
$9 billion in Georgia for a unit, and the price per kilowatt-
hour. If you are talking about $.10 to $.14 a kilowatt-hour and 
you have gas at $.05 a kilowatt-hour and you have wind and 
solar at $.03 a kilowatt-hour, how are we going to drive down 
these costs because that seems to me to be an absolutely 
essential part of this formula if we are going to build new 
nuclear reactors.
    Ms. Korsnick. Yeah, so I would agree with you.
    Obviously, we have to be able to create and build these 
plants in a cost-effective way. At the same token I would say 
that we have to look at the attributes that nuclear power is 
bringing to the marketplace to say that today those attributes 
are being provided for free.
    And that's why the market is not recognizing, nuclear has 
hit a perfect storm of very low gas prices, other generation 
types that have significant subsidies and also a low, load 
growth profile right now in the United States. And if you take 
carbon out of the question, to your point, there's other 
sources that can be provided at a lower source.
    Senator Heinrich. For starters, we might want to value 
carbon-free energy across the board and make sure that there is 
some market mechanism to do that.
    Ms. Korsnick. That's correct.
    Dr. Finan. Senator, could I speak to your----
    Senator Heinrich. Yes, absolutely.
    Dr. Finan. On the new builds, in particular, I think a lot 
of the advanced reactors are really trying to address this key 
question, how do we address cost?
    And we see two main approaches to reducing new build cost. 
We've come to understand that nuclear plants right now are mega 
projects----
    Senator Heinrich. Right.
    Dr. Finan. ----and mega projects are fundamentally 
vulnerable to delays.
    Senator Heinrich. And not scalable as you go down, not 
versus as you go up.
    Dr. Finan. Right, right. And there are just too many 
interdependencies. And so, you can either build up capacity to 
do mega projects and we've seen that elsewhere. Korea has a 
good capacity. We lost that in nuclear and we can work to 
rebuild that.
    Another approach is to try to avoid being a mega project. 
And that's what a lot of the advanced companies are really 
trying to do is to increase the manufacturing and decrease the 
construction onsite. And that will also make them more of a 
U.S. export because you can do that manufacturing in the United 
States, even if you're shipping it to Poland. Whereas, you're 
not going to export an entire construction team to Poland.
    So there are a lot of reasons to take that approach and 
those are two ways to address the upfront cost.
    Senator Heinrich. Thank you, Chairman.
    The Chairman. Thank you, Senator Heinrich.
    Senator McSally.
    Senator McSally. Thank you, Chairwoman. I appreciate you 
having this important hearing today.
    The Palo Verde generating station in Arizona is the largest 
electricity generating plant of any source in the United States 
averaging 3.3 gigawatts. In three reactors, Palo Verde produces 
more than one-third of the electricity in my state. The plant 
provides carbon-free power to more than four million people 
across the Southwest including Phoenix, Tucson, Los Angeles, 
San Diego and more.
    According to Arizona Public Service, which is the main 
operator of Palo Verde, the amount of clean air power produced 
at this site has offset the emissions of nearly 484 million 
tons of carbon dioxide. That is the equivalent of taking 84 
million cars off the road for a year. To generate this much 
clean electricity from solar power you would need almost 200 
square miles of solar panels or roughly the land mass of the 
entire city of Scottsdale, Arizona.
    Now I am a strong supporter of solar and wind power but 
these technologies do have their limits, especially when it 
comes to meeting industrial power needs and providing 
electricity in adverse weather and at night, for example.
    But in addition to being an engineering marvel due to its 
size, Palo Verde is also remarkable for its water efficiency. 
In the heart of one of North America's largest and driest 
deserts, Palo Verde is the only nuclear power plant in the 
country not built near a large body of water. Instead, it 
recycles more than 20 billion gallons of wastewater from 
surrounding municipalities to cool the plant.
    Palo Verde has often led American nuclear power plants in 
efficiency, operating at 90 percent full capacity while 
providing competitively priced electricity.
    While much of the conversation today is focused on future 
technology and the promise of advanced nuclear reactors which 
we need, it is clear the nation's existing fleet of nuclear 
reactors, as many of you have talked about, play a critical 
role in providing safe, reliable, clean electricity to power 
our homes and our economy.
    So any serious conversation we have about carbon reduction 
goals needs to include robust support for our nation's existing 
nuclear power plants, in my view, as many of you have also 
shared.
    Combined with other renewables and more efficient use of 
natural gas and traditional fossil fuels, we really can have a 
leadership in a true all-of-the-above energy strategy which I 
support.
    I just wanted to lead in with that. We are very proud to 
have Palo Verde in Arizona.
    Ms. Korsnick, you talked about the existing fleet of 
nuclear power plants in your testimony and in other questions 
as a central part of our critical infrastructure needs. Can you 
expand on the importance of these large nuclear generating 
stations like Palo Verde and in meeting our current and our 
future energy needs?
    Ms. Korsnick. Absolutely. I'm very proud of the United 
States' nuclear fleet. Last year we operated at a 92 percent 
capacity factor, actually a little bit larger than that, 
capacity factor meaning operating as many hours as you can.
    But if you look over the last 15-plus years, the U.S. fleet 
has had a greater than 90 percent capacity factor. You don't 
get that way by being lucky. You get that way because we are 
very, very good and I would say, world's best, at operating 
nuclear power plants. And we've done that through really 
understanding operational excellence, rigorous training 
programs akin to the training programs that Mark McManus 
mentioned earlier. And we should be very proud of the 
operational excellence that we have here in the United States.
    That's why it's so important that we are involved in 
building these plants outside of the United States. These 
aren't just widgets. You don't just send them around. It's not 
just the hardware, it's the how do you operate these and to 
make sure that these are done with operational excellence.
    I used to be an operator. I worked in the control room. I'm 
very personally familiar with the training programs. It's very 
rigorous. Something we should be very proud of here in the 
United States.
    Mr. Merrifield. Senator, I would just add.
    Senator McSally. Yes.
    Mr. Merrifield. I agree, completely agree, with everything 
Maria just said.
    When I was an NRC Commissioner, I got a chance to go to 
over half of the world's 440 nuclear power plants. And I can 
attest I made multiple visits to Palo Verde. You have as fine a 
nuclear power plant in Arizona as anywhere around the world.
    Senator McSally. Amen. Thank you, sir.
    A lot of discussion today and often is about, obviously, 
reducing our carbon emissions and this has been part of the 
discussion already. You know, it is frustrating because, I 
mean, again, we support solar and wind but sometimes nuclear is 
just left out of the conversation by some people when they are 
thinking about clean energy.
    We had an out of state billionaire come into Arizona last 
year on an initiative trying to tell us exactly what kind of 
energy we needed and they conveniently left out nuclear as part 
of what the goals would have been.
    So can you talk about how important it is, as we are trying 
to meet carbon emissions, that nuclear is a part of that clean 
energy conversation? If anybody wants to jump in?
    Mr. Merrifield. Senator, you are spot-on in that regard. As 
was demonstrated, and I think Senator Alexander spoke of this, 
those countries like Germany which have taken nuclear assets 
offline have seen actually a spike in their carbon production.
    There is one thing I think is important though and this is 
coming from the energy organization in North Carolina and South 
Carolina of which I am a part. We believe in all-in. And I do 
believe that wind and solar, like you do, play a very important 
part there. I think for the purposes of the advanced reactors, 
which is a major focus of this hearing today, many of these are 
complementary.
    Senator McSally. Exactly.
    Mr. Merrifield. It's not nuclear or wind and solar. It's 
really how do those work together to provide the carbon-free 
energy that we need.
    Senator McSally. Exactly.
    Mr. Merrifield. And many of those designs going forward are 
designed to load follow, to work in a way which would be very 
well interconnected with wind and solar assets.
    Senator McSally. Exactly.
    Mr. Merrifield. So I think it is important for both going 
forward.
    Senator McSally. I totally agree. Thanks.
    I am out of time. I appreciate it.
    The Chairman. Thank you, Senator McSally.
    Senator King.
    Senator King. I apologize for not being here for the entire 
hearing. I was at an Armed Services Committee hearing, but has 
the word waste been mentioned in this conversation? I don't 
think it has.
    I just met with a group of young people. They are all for 
carbon-free energy. They are excited, but they are not excited 
about paying the price of our using electricity and leaving to 
them what to do with the waste.
    We have not met a 70-year promise in this country yet on 
nuclear waste. I have a high-level nuclear waste site in 
Westport Island, Maine, because when Maine Yankee closed, the 
Department of Energy breached its contractual obligation to 
take away that waste and do something with it. So that is my 
problem with this bill. I am not opposed to the technology of 
nuclear power. I am definitely in favor of carbon-free power. I 
think it can be an enormous boon to our economy and to our 
climate. But I just don't know how we have this discussion and 
not talk about this really significant problem that is not 
being addressed. And I am tired of passing burdens on to our 
children. I don't think that is what we are sent here to do.
    Mr. Commissioner?
    Mr. Merrifield. Senator, I look at this, I think we have a 
public policy problem. There are a variety of different 
technical methods to actually safely address long-term waste.
    Senator King. Yes, but they have not been implemented in 70 
years.
    Mr. Merrifield. Well, there are a variety of them. They are 
on the table right now.
    Now obviously, Congress will decide what it wants to do or 
not do relative to Yucca Mountain, but there are also waste 
facilities, intermediate waste facilities, proposed in New 
Mexico and Texas that can take that fuel off of the site. I 
mean, Yankee, and I have visited that beautiful site. There's 
also a technology called deep isolation that talks about 
using----
    Senator King. You are talking about future technologies and 
proposed projects.
    Mr. Merrifield. These are currently available.
    Senator King. We are talking about a bill here to promote 
nuclear power----
    Mr. Merrifield. Right.
    Senator King. ----without having solved that problem. I 
think we have it backward. Let's solve the waste problem and 
then talk about promoting nuclear power. What am I missing?
    Mr. Merrifield. Well Senator, those capabilities are 
available now.
    Senator King. They are not in place.
    Mr. Merrifield. It's been demonstrated in Finland where 
they are putting in a deep geologic repository in granite. 
Those technologies are demonstrated and capable.
    We have a public policy problem that Congress needs to 
address.
    Senator King. But we are not doing them. We are not doing 
them.
    Anybody else want to tackle this?
    Ms. Korsnick. Yeah, I mean, I would agree with you, we need 
a solution to the waste problem. It's not a technical problem. 
It's something that needs to be addressed in these halls, and I 
know that there are folks that are focused on doing that.
    At the same token, I think you have to look at the benefits 
that this technology provides. As an industry, we've 
contributed $40 billion to be a part of the solution to this 
waste issue. So we've contributed the money.
    Senator King. Oh, I agree, you have been--you have paid a 
lot of money that you have not gotten anything back for. The 
industry, Maine Yankee in Maine is, I don't know, $70 or $80 
million, a lot of money.
    I just think as part of this bill there ought to be a 
section that talks about solving the waste problem.
    Let's be clear. This bill, which I think is a good bill, 
will promote additional nuclear power. But it says nothing 
about solving this fundamental problem that has been with us 
for 70 years. This government has been promising the American 
people that they are going to solve this problem, and they 
haven't.
    So I don't----
    The Chairman. Senator King, I don't mean to interrupt on 
your time. I will give you more time here.
    But I did mention in my opening statement that the 
bipartisan measure that Senator Alexander and Senator Feinstein 
and I have been working on for several Congresses now that 
deals directly to the waste issue, we have introduced that 
today. We would encourage you to join us on that.
    But we do recognize----
    Senator King. Subject to reading it, the answer is yes.
    [Laughter.]
    The Chairman. Subject to reading it, of course, of course. 
That is what we always say.
    But I think that your point is clearly a fair one. What 
we're doing with NELA is focusing on that future for nuclear 
but we do recognize that we have this responsibility to address 
the waste side of it.
    Senator King. Thank you.
    The Chairman. We are proposing that in that separate 
legislation.
    Senator King. That is very helpful. Let me----
    The Chairman. I will give you back your 40 seconds.
    Senator King. No, it says a minute and 19. I got a 
dividend, I guess.
    I couldn't help but notice when you are talking about the 
long-term PPA, you are talking about a high capital cost, low 
operating cost and shorter-term contracts.
    I used to be in the hydro business. Almost all those same 
arguments apply to hydro. And we have not had much in the way 
of hydro development in the country, in part, because of short-
term PPAs that cannot amortize the high capital cost. I just 
make that as an observation. I fully understand that business.
    One question, and this is a genuine question that I don't 
know the answer to. Operating costs, what is the comparative 
operating cost of a nuclear plant compared with gas, coal, 
hydro? I think that is a relevant question here. We know that 
it is relatively low, but I would like some figures, perhaps 
you can share some.
    Ms. Korsnick. Sure, we look as an average across the whole 
industry last year that operating cost was 3.1 cents a 
kilowatt-hour.
    Senator King. Okay, so that is the ongoing operating cost. 
Does that include fuel?
    Ms. Korsnick. Yes, that's capital fuel and O&M.
    Senator King. Oh, that's capital as well.
    I am talking about just O&M, obviously something less than 
3.1.
    Ms. Korsnick. That's correct.
    Senator King. Okay.
    Well, the other piece, of course, which we have talked 
about at some length, and I am out of time, is cost and that is 
what we really have to work on.
    I believe that we should be paying insurance policies for 
getting out of the fossil fuel business. The question is how 
high is the premium? And that is where this industry, I think, 
has a contribution to make, but a ways to go.
    Thank you very much, Madam Chair. Thank you for introducing 
this bill.
    Mr. McManus. If I may, Madam Chairman?
    The Chairman. Mr. McManus.
    Mr. McManus. You know, I think the question--I never like 
to answer a question with a question. What is the cost of not 
doing anything on subsidizing or enhancing the nuclear fleet? 
If we have 20 percent of America's power and we pull that off 
the table, what's the cost of the climate change, to the young 
folks, saying that we may have this backward.
    I disagree on that. I think Congress, and sometimes it's 
hard to say this to Congress, we can do more than one thing at 
a time. I think we can work on the waste as we're not pulling 
off 98 more nuclear fleets.
    And then the economic cost as well is when up in Maine, 
Yankee Maine, when a nuclear facility comes offline and pulls 
on, it devastates communities. The economics that aren't 
measured is the local economics of the people, the workers, the 
auxiliary businesses that make up the communities that these 
fleets are there.
    If you talk to folks that are in communities with 98 
nuclear power plants, they like the nuclear power plants there. 
They like the economic engine that it brings to it.
    Thank you.
    Ms. Korsnick. Sir, if I could just answer your question? I 
pulled up my information. If you just look at the operational 
cost it's 1.97 cents a kilowatt-hour.
    Senator King. That is helpful, I appreciate it.
    The Chairman. Thank you, Senator King.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. I appreciate the 
conversation today as well as with this bill.
    Let me just say, with all due respect, the bill that you 
talked about that you dropped earlier today still identifies 
Yucca Mountain as a site and does not give the State of Nevada 
consent-based siting. And that is why I disagree with it.
    If all the states were treated equally when we are looking 
at deep geologic storage, that is one thing but still we have, 
I think, a policy moving forward that is not based on sound 
science for the very reason that you said, a lot of these deep 
geologic sites are in granite. Yucca Mountain is not granite. 
It is volcanic.
    And so, but let me get to the question I think that my 
colleague also asked, this was a concern of mine. I think we 
should have been addressing this over the last 20 years is what 
do we do with this waste?
    And what I am hearing is that this legislation as it 
tackles advanced nuclear reactor technologies and, I think, Dr. 
Finan, you addressed this, is that part of the benefits of 
advanced nuclear reactor technologies is the reduction in 
nuclear waste. Can you address that specifically?
    Dr. Finan. Sure, I mean, I think that I want to just say 
that I appreciate the question and that the waste issue is 
really important. For nuclear to contribute to carbon 
reductions to the extent that it's capable, we have to address 
this waste issue.
    Advanced nuclear reactors can reduce the nuclear waste 
quantity and the length of time that it needs to be managed. 
But we will still need, ultimately, to come to a policy that 
has broad support and is sustainable because we've been 
managing waste for a long time. And I think that the nuclear 
industry actually manages its waste better than any other. We 
track it. We store it. We package it. We watch it. We keep 
track of it. I mean, it's really, we do a lot of managing. But 
we don't have a long-term strategy. So, I think it's time to 
take a hard look at our technological options and at our 
process and commit to finding a strategy.
    Senator Cortez Masto. Oh, I agree. I agree with that on the 
policy. And I think that is what we should have been doing the 
last 20 years. We have wasted time and money.
    But my question to you is this bill, and what I am told 
this bill's, this focus, this advanced nuclear reactor 
technology that we are all want to invest in and do the R&D and 
move toward, is to reduce, it has the benefit of reducing 
nuclear waste. Can you give me specifics on that and how it 
reduces it? I would open it up for anybody else as well to talk 
about it.
    Dr. Peters. To put it succinctly, the reason you go to the 
higher enrichment, we've talked about HALEU, high-assay, low-
enriched uranium, you push the enrichments up, is partly 
because you want to go small, to even very small, but also 
because you can generate more unit energy per amount of fuel. 
So you're using less fuel to get the same amount of energy 
where you can generate more energy out of the fuel. So you're 
minimizing the amount of spent fuel that has to be managed.
    Some of the reactor technologies could also, in theory, if 
one chose, could actually use that material as fuel and even 
recycle the material.
    Ms. Korsnick. Yeah, I think that's really the point that 
we're making to you without going into a lot of, you know, sort 
of, nuclear engineering specifics.
    Senator Cortez Masto. Right.
    Ms. Korsnick. The kind of fuel that these units use that 
we're calling waste is really just transformed. It has taken 
what was U2-35 and it's made it something else. It's made it 
some into plutonium. It's made it some into U2-38. These 
advanced reactors, they use that kind of fuel.
    So really what we're creating is, what you call today as 
waste, is future nuclear fuel. And now we're building reactors 
that can use that future nuclear fuel.
    Senator Cortez Masto. Thank you.
    My next question then is this Senate bill 903, this bill, 
is it focused specifically on incentivizing and supporting 
advanced nuclear technology or does the existing nuclear fleet 
that we have get to take advantage of some of the amendments 
and language in here like extending the purchase power 
agreements, the pilot projects? Does our existing fleet get to 
take advantage of Section 903 as well?
    Dr. Peters. This legislation is specifically focused on 
advanced reactors.
    Senator Cortez Masto. So what I am hearing right now is our 
existing fleet of nuclear reactors cannot benefit at all from 
Section 90, from the Senate bill 903?
    Ms. Korsnick. Well, I would just take one exception to 
that. The HALEU provision for this, there are some of the 
current fleet that would like to use some of the higher 
enrichment. What that allows them to do is operate a longer 
period of time which enables them to reduce some cost. So there 
is some benefit for them through the HALEU.
    Mr. Merrifield. Right. Maria is quite right in mentioning 
that. Lightbridge Corporation, along with Framatome, is 
developing a metallic fuel that would utilize HALEU in order to 
produce a fuel for the current fleet that would allow both 
higher utilization of those facilities. It may also allow them 
to increase their power to make them even more efficient. So in 
that regard, yeah, the bill does include language in here would 
be helpful in that regard.
    Senator Cortez Masto. Okay.
    Dr. Finan. And Senator, could I just add that extension of 
the Federal Power Purchase Agreement term can benefit all 
technologies? That's technology neutral, so it could benefit 
nuclear technologies. It could benefit geothermal, solar and 
wind. And I think that's an important aspect of the bill.
    Senator Cortez Masto. Thank you. Thank you very much.
    The Chairman. Thank you, Senator Cortez Masto.
    And just to your point about our waste bill that has been 
referenced now a couple times and, again, I would urge you to 
look critically at it because our purpose, our intent in moving 
forward is to address a mechanism that will allow for a 
consent-based process for these consolidated storage 
facilities.
    It doesn't take Yucca off the table if it were to be 
determined that the folks there seek to endorse this. But our 
approach, and I am going to turn to Senator Alexander, we have 
both been working on this for so many years here, but again, 
where there is a recognition that we have to get started. We 
have been hung up for a long time on Yucca. You know that. We 
know that. But in the meantime, our approach has been to figure 
out how we can move forward, consent-based, and help address 
some of the stalemate that we have seen.
    Senator Alexander.
    Senator Alexander. If I could just take a couple of 
minutes.
    Starting with Senator King, the Murkowski bill which a 
number of us support, Senator Feinstein, others, has nothing to 
do with Yucca Mountain. What it does is it creates other sites. 
It authorizes interim storage sites which we have passed and 
approved in our energy and water appropriations bill with the 
consent of the Ranking Members of this Committee, two or three 
times now. It does the same thing with private sites which are 
probably the fastest way to get waste out of Maine or 
California or where ever else to another place.
    There are two applications for private sites in New Mexico 
and Texas. It authorizes a separate long-term site, a second, 
if you will, Yucca Mountain. But it does not do anything about 
Yucca Mountain. I would hope that both Senators would look 
carefully at the legislation.
    We can argue about Yucca Mountain, but this bill does not 
have anything to do with Yucca Mountain because it provides 
additional sites and the only reason we haven't--Senator King 
was asking wonderful questions about why all these technologies 
that are available haven't been used. It is our fault. It is 
the fault of the Congress over the last 35 years.
    We have not approved any of it because we have had a 
stalemate with the House of Representatives. We will pass our 
provision that says let's go forward with these alternative 
sites then the House says, we won't do that unless Yucca 
Mountain is included and we come to a stalemate.
    So I wanted to characterize Senator Murkowski's bill in 
that way in hopes that it would have broader support.
    Senator Cortez Masto. Can I ask a point of clarification 
because I have read the bill, and I appreciate you both being 
here as the sponsors of the bill and I am trying to understand 
as well.
    So the consent-based siting that is in there gives every 
state consent-based siting but Nevada over--because if Nevada 
is unhappy with consent-based siting, with respect to Yucca 
Mountain, we don't have that authority to stop it. We don't get 
that.
    Senator Alexander. It does not have anything to do with 
Yucca Mountain.
    Senator Cortez Masto. So Yucca Mountain is not in your bill 
at all?
    Senator Alexander. No.
    Senator Cortez Masto. It is taken out completely?
    The Chairman. It does not reference it.
    Senator Alexander. Yucca Mountain is not a part of the 
bill, correct?
    This is about additional sites other than Yucca Mountain. 
In fact, if you are opposed to Yucca Mountain, which I gather 
you are, I would encourage this bill because it creates other 
sites to take used nuclear fuel from Maine and California and 
have a place to put them.
    Senator Cortez Masto. The last, when it was dropped last 
time it had Yucca in it. So I appreciate it if Yucca is not in 
this time, I will absolutely take a look.
    So just for clarification, Nevada does have the ability to 
engage in consent-based siting as well like every other state?
    The Chairman. Like every other state.
    Senator Alexander. Madam Chairman, if I may say, this bill 
says nothing about Yucca Mountain.
    Senator Cortez Masto. Okay.
    Senator Alexander. It does not change the law. There's a 
30-, 40-year history of Nevada being involved in approving and 
not approving Yucca Mountain which I don't think it helps to 
get into today.
    Senator Cortez Masto. Yes, that is great to hear.
    Senator Alexander. We tried to avoid that. It leaves Yucca 
Mountain right where it is. I think we should have a vote on 
Yucca Mountain--and I will vote for it and you will vote 
against it--and we will see who has the most votes. But in the 
meantime, we ought to go forward.
    Senator Manchin. If I could say one thing.
    My understanding was this. Yucca will not be taken off the 
table, but Yucca will not be ahead of anything else until we 
get everyone else evaluated to Yucca's standard because so much 
effort has been toward Yucca over the years. So, it is where it 
is. People made up their mind.
    Senator Cortez Masto. So nothing is going to happen with 
Yucca until we survey every other site for deep geologic 
storage.
    Senator Manchin. That is my intention. That is what my 
understanding is.
    Senator Cortez Masto. And so, it will be on hold until we 
do the survey for every other potential opportunity?
    Senator Manchin. I think we should evaluate all the other 
sites that are on the table and other sites that should be 
evaluated before anything is moved forward, so Yucca just is 
not all by itself.
    The Chairman. Right.
    I am just reminded, Yucca is in law, if you will. We have 
some years back made that determination.
    It is not, certainly my intent, as one of the authors of 
this, that the State of Nevada is treated any differently when 
it comes to what we are looking to build out which is this 
consent-based storage. And so, Nevada would be treated the same 
there.
    We do not reference Yucca, but I think to your point, it 
may be inferred that Yucca is treated differently because of 
the existing law. So know that my intent is to make sure that 
what we are doing here is we are allowing for a process to move 
forward so we can address the waste issues. We have to resolve 
Yucca, one way or another.
    In the meantime, everything has been put on pause. 
Everything has been put on pause for decades now and we have 
not been able to do anything. We argue over Yucca, and we 
cannot get moving on anything else. So this is, kind of, an 
opportunity for us to get moving while we make a determination 
as to whether or not Yucca is in the future or not.
    Senator Alexander. Madam Chairman?
    The Chairman. Yes.
    Senator Alexander. If I could suggest, to eliminate any 
confusion about this bill that you sponsor and I cosponsor, 
maybe a hearing at some point----
    The Chairman. Yes.
    Senator Alexander. ----to make, on this topic, to make it 
clear the relationship this bill has to Yucca Mountain or not 
would be useful so we do not have confusion about it.
    The Chairman. Well, as I mentioned, we are just dropping 
this bill today. This will give everybody a chance to really, 
keenly eyeball it.
    I think Senator Alexander's suggestion is a good one. We 
all recognize that if there is going to be this vibrant future 
for nuclear, whether we are talking the more traditional 
existing or the advanced or the microreactors, we have to 
address waste. So know that this Committee is keenly focused on 
that.
    Now I am going to turn to Senator Cantwell, who has been 
living with it in her state for far too many years, and we know 
we have to address Hanford and the other sites.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and thank you for 
that intro because as you and our other colleague who is 
leaving are both appropriators, I do want to remind us of the 
ongoing challenges of cleaning up nuclear waste at the Hanford 
site.
    I was just out there last week and saw some progress on 
low-level waste, but we clearly need to keep making progress 
and need a budget that reflects making milestones. So thank you 
for bringing that up.
    I wanted to ask the witnesses, if I could, kind of a 
twofold question, one on the front end of where we are today 
and one on the back end of where we need to go. The front end 
being what do we do on the IP side if the United States is 
going to continue to be a leader in the development of next 
generation technologies, what can we do to do IP protection on 
the national security side so that we are developing a market, 
not just for the United States, but for other countries? And 
you know, to me, if we are going to be an important player in 
this, we have to figure out how to get this IP protected and 
not have it used. So I want to ask that question.
    The back end question is what do we need to do on material 
sciences? We are doing a good job at PNNL on some aspects of 
this, but don't we need to do more on material sciences for 
various nuclear technology applications and what should we be 
doing?
    So I will throw that open to you.
    Mr. Merrifield. Senator, if I can first take a crack at the 
IP issue?
    And I certainly understand the concern of members of this 
Committee in that regard, you know, as an attorney and one that 
counsels many advanced reactor developers, we're not, on my 
client's behalf, we aren't seeing a lot of issues with the 
current structure of intellectual property here in the United 
States. I think we're a little bit cautious that they're not--
recognizing that there are issues of enforcement and issues of 
national security and the whole issue of theft of some of the 
technology. Westinghouse is obviously in the minds of many.
    We have an existing structure in the United States that's 
actually working quite well, and to tighten down intellectual 
property further could hinder the ability of U.S. companies to 
export these technologies and would only allow the Chinese, the 
Russians and others to take a larger share of the marketplace.
    Senator Cantwell. Well, some exports are getting shut down 
now, so, that is why I am asking. We have to figure out how to 
accomplish being a player in next generation technology and 
protecting its IP.
    Dr. Peters. Yeah, Senator Cantwell, Senator Manchin asked 
us a somewhat similar question earlier and from the labs' 
perspective, I am at Idaho National Laboratory, but the labs 
are all working with the Department of Energy right now on that 
exact question about how to make sure we're protecting the wide 
spectrum of energy technologies, recognizing that it's a global 
market. And if the U.S. is going to lead, we're going to have 
to plan that global market, as Jeff alludes to, but also making 
sure we have the proper controls in place, particularly as 
technologies get closer to market.
    Basic science probably needs to be more open, very basic 
science, but then when you get closer to technologies that go 
to market, we need to have more controls. And we're actively 
working with DOE on how to figure out how to protect the U.S. 
interests in that space.
    Senator Cantwell. What else do we have to do that we are 
identifying that DOE's role would be?
    Dr. Peters. I would encourage the Congress to understand 
better what DOE is doing, because DOE is very actively working 
with the labs and the universities in this space as we speak. 
The lab directors are personally all involved in the 
conversations.
    So I would say before Congress----
    Senator Cantwell. My guess is we know detection because 
that is why we have been able to detect that it has been used 
for other purposes, but now we have shut down markets. So we 
have to figure out how to--I am just pointing out we are going 
to have this discussion----
    Dr. Peters. Yes.
    Senator Cantwell. ----and we think that international 
market is a big place. We have to figure out, like in every 
aspect of intellectual property, how we are going to make sure 
it is protected.
    Dr. Peters. Yes. And I was just trying to make the point 
that it's already being taken seriously. So, I think a good 
conversation would be helpful.
    Senator Cantwell. With DOE?
    Dr. Peters. Yes.
    Senator Cantwell. Great.
    And then what about, yes, on the----
    Dr. Peters. If it's okay, I'll say on for material science, 
if that's okay.
    Senator Cantwell. We like northwest labs.
    Dr. Peters. Yeah, yeah, right and they're a close 
collaborator in the nuclear space with us.
    So a lot of these advanced systems, really, it's about 
materials. It's about advanced fuels, new kinds of fuels. It's 
about new kinds of structural materials that can last longer.
    And so, there's a lot of science that's going into, the 
labs and universities are doing a lot the foundational science 
that will enable those advanced materials. So, that's using all 
the user facilities at the laboratories, the computer 
capability, the laboratories, across the board. So, yeah, I 
would say it's all about materials. And so, the labs have a 
really, really key role.
    Senator Cantwell. Do we need more investment there or 
targeting these applications?
    Dr. Peters. I think we need more focused investment to make 
sure that we're getting--and that's, sort of, what NELA is 
about, right--focused investment to get to demonstrations. I 
don't think this needs to be a broad sort of scientific 
sandbox, if I may, but a very focused investment in the right 
materials.
    Mr. Merrifield. Senator, in terms of investment, one thing 
I would add and I agree with Mark. When you look at the cost of 
building any of these power plants, about half of the cost is 
associated with action in the engineering and construction. So 
as we're looking at trying to move these forward, advanced 
construction is also an area of investment that we really need 
to be thinking about.
    Senator Cantwell. Okay, thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    I appreciate the conversation this morning. I think it has 
been good, it has been helpful as we look to the attributes of 
NELA and how we can continue to build on some of the 
legislation that we have introduced and passed previously.
    It is also a good reminder to us that we must address the 
issue of the nuclear waste end of it and how we are able to do 
that. We are going to need the help and the cooperation of 
others as we are talking about the technologies of the future. 
We also have to realize that we have a legacy of the past that 
must be addressed. So we have a lot to work on within this 
Committee.
    I will tell you, I get really excited about the prospects 
for leadership here in this country again when it comes to 
nuclear. Several of you have mentioned that the one thing that 
we do best here is on the innovation side. It is moving forward 
with these technologies.
    I love the idea that not only are we going to be moving us 
in a direction that will help us from an emissions perspective, 
but also this is exportable, this technology, the manufacturing 
that we would be capable of. This can help us not only from the 
jobs perspective which you point out, Mr. McManus, but again, 
as we deal with other countries that are also looking for those 
solutions.
    I was in Vietnam over this past recess and you have a 
country there that their economy is just booming and they are 
seeking those cleaner energy, those lower emission solutions. 
It was really interesting that as they talked about 
incorporating more wind and solar and were eyeing the prospects 
of LNG, their reality is that they are continuing to 
aggressively use coal and that nuclear is not part of their 
conversation. How we can help change that view and that 
perspective, I think, comes with the technology.
    I am really excited about the opportunity for the small, 
small, the microreactors. We have opportunities in a state like 
mine where it is not only remote, it is really, really remote. 
And yet, these are areas where there is potential for access of 
certain minerals that are going to be key to our nation's, 
just, stability when it comes to being able to access rare 
earths and certain critical minerals. But if you can't get 
power to them beyond diesel power generation, it is pretty darn 
expensive, to make this mine work. So I look at the application 
of microreactors for that purpose as extraordinarily important.
    I am excited about what we can do with the application for 
creating hydrogen or desalination of water. I think that that 
is something that, particularly as we look up north on the 
North Slope and how, again, you are going to need water for 
your various applications in the oil and gas industry up there. 
How about powering it with zero emission technology that allows 
for you to desalinate your water and process things cleaner and 
just more efficient?
    So I am excited about that. I think that we are moving in 
the right direction. And it is through leadership that we see 
from so many of you and the organizations that you represent. 
We greatly appreciate the work of our national labs in this 
space.
    But when we are talking about how we lead in energy 
innovation, when we are talking about our potential within the 
nuclear space, I thank you for what you are contributing to it.
    We are going to work on moving NELA. Help us with that. It 
is a good, strong, bipartisan bill but around here legislating 
seems to get harder and harder every day but we have 
demonstrated out of this Committee that we have great capacity 
for that and know that that is exactly what we intend to do.
    With that, I thank those of you who have come and provided 
such good, strong testimony.
    The Committee stands adjourned.
    [Whereupon, at 11:50 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------    
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

</pre></body></html>
